      Department of Homeland Security




      Independent Auditors’ Report on U.S. Customs and 

       Border Protection’s FY 2012 Financial Statements 





OIG-13-53                                        March 2013
                          OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security
                                Washington, DC 20528 / www.oig.dhs.gov


                                        MAR 22 2013


MEMORANDUM FOR: 	             Deborah J. Schilling
                              Chief Financial Officer
                              U.S. Customs and Border Protection

FROM:                         Anne L. Richards
                              Assistant Inspector General for Audits

SUBJECT: 	                    Independent Auditors’ Report on U.S. Customs and Border
                              Protection’s FY 2012 Financial Statements

Attached for your action is our final report, Independent Auditors’ Report on U.S. Customs
and Border Protection’s FY 2012 Financial Statements. We have incorporated the formal
comments from U.S. Customs and Border Protection (CBP) in the final report.

The report presents the results of CBP’s consolidated financial statement audits for fiscal
years (FY) 2012 and 2011. We contracted with the independent public accounting firm
KPMG LLP to perform the audits. KPMG LLP concluded that CBP’s consolidated financial
statements as of and for the years ended September 30, 2012, and September 30, 2011, are
presented fairly, in all material respects, in conformity with U.S. generally accepted
accounting principles.

The FY 2012 independent auditors’ report also contains observations and 18
recommendations related to internal control weaknesses that were considered significant
deficiencies and were required to be reported in the financial statement audit report. The
four significant deficiencies in internal controls are presented below; the first significant
deficiency is considered to be a material weakness. Your office concurred with the one
material weakness and three other significant deficiencies presented below:

                         Significant Deficiencies in Internal Control

   A. Drawback of Duties, Taxes, and Fees
   B. Property, Plant, and Equipment
   C. Entry Process
          1. In-Bond Program
          2. Bonded Warehouse and Foreign Trade Zones
          3. Entry Reports
   D. Information Technology
                         OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


KPMG LLP is responsible for the attached independent auditors’ report dated
January 25, 2012, and the conclusions expressed in the report. We do not express opinions
on financial statements or internal control or conclusions on compliance with laws and
regulations.

Consistent with our responsibility under the Inspector General Act, we are providing copies
of our report to appropriate congressional committees with oversight and appropriation
responsibility over the Department of Homeland Security. In addition, we will post a copy
of the report on our website for public dissemination.

Please call me with any questions, or your staff may contact Mark Bell, Deputy Assistant
Inspector General for Audits, at (202)254-4100.

Attachment




                                             2

                                KPMG LLP
                                Suite 12000
                                1801 K Street, NW
                                Washington, DC 20006


                                         Independent Auditors’ Report


Inspector General
U.S. Department of Homeland Security:

Deputy Commissioner
U.S. Customs and Border Protection:

We have audited the accompanying consolidated balance sheets of the U.S. Customs and Border Protection
(CBP), a Component of the U.S. Department of Homeland Security (DHS), as of September 30, 2012 and
2011, and the related consolidated statements of net cost, changes in net position, and custodial activity,
and combined statements of budgetary resources (hereinafter referred to as “consolidated financial
statements”) for the years then ended. The objective of our audits was to express an opinion on the fair
presentation of these consolidated financial statements. In connection with our fiscal year 2012 audit, we
also considered CBP’s internal control over financial reporting and tested CBP’s compliance with certain
provisions of applicable laws, regulations, and contracts that could have a direct and material effect on
these consolidated financial statements.

Summary
As stated in our opinion on the consolidated financial statements, we concluded that CBP’s consolidated
financial statements as of and for the years ended September 30, 2012 and 2011, are presented fairly, in all
material respects, in conformity with U.S. generally accepted accounting principles.

As discussed in our Opinion on the Financial Statements, CBP changed its presentation for reporting the
Statement of Budgetary Resources and changed its method of accounting for certain user fees in fiscal year
2012.

Our consideration of internal control over financial reporting resulted in identifying certain deficiencies
that we consider to be a material weakness and other deficiencies that we consider to be significant
deficiencies, as defined in the Internal Control Over Financial Reporting section of this report, as follows:

        Material Weakness:
        A. Drawback of Duties, Taxes, and Fees

        Significant Deficiencies:
        B. Property, Plant, and Equipment
        C. Entry Process
                1. In-Bond Program
                2. Bonded Warehouse and Foreign Trade Zones
                3. Entry Reports
        D. Information Technology

The results of our tests of compliance with certain provisions of laws, regulations, and contracts disclosed
no instances of noncompliance or other matters that are required to be reported herein under Government
Auditing Standards, and Office of Management and Budget (OMB) Bulletin No. 07-04, Audit
Requirements for Federal Financial Statements, as amended.



                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.
The following sections discuss our opinion on CBP’s consolidated financial statements; our consideration
of CBP’s internal control over financial reporting; our tests of CBP’s compliance with certain provisions of
applicable laws, regulations, and contracts; and management’s and our responsibilities.

Opinion on the Financial Statements
We have audited the accompanying consolidated balance sheets of the U.S. Customs and Border
Protection, a component of the U.S. Department of Homeland Security, as of September 30, 2012 and
2011, and the related consolidated statements of net cost, changes in net position, and custodial activity,
and the combined statements of budgetary resources for the years then ended.

In our opinion, the consolidated financial statements referred to above present fairly, in all material
respects, the financial position of CBP as of September 30, 2012 and 2011, and its net costs, changes in net
position, budgetary resources, and custodial activity for the years then ended, in conformity with U.S.
generally accepted accounting principles.

As discussed in Note 1 to the consolidated financial statements, CBP changed its presentation for reporting
the combined statement of budgetary resources in fiscal year 2012, based on new reporting requirements
under OMB Circular No. A-136, Financial Reporting Requirements. As a result, CBP’s combined
statement of budgetary resources for fiscal year 2011 has been reclassified to conform to the current year
presentation.

As discussed in Note 22, CBP changed its method of accounting for certain user fees. These accounting
changes were reflected in the fiscal year 2012 financial statements.

U.S. generally accepted accounting principles require that the information in the Management’s Discussion
and Analysis and Required Supplementary Information sections be presented to supplement the basic
financial statements. Such information, although not a part of the basic financial statements, is required by
the Federal Accounting Standards Advisory Board who considers it to be an essential part of financial
reporting for placing the basic financial statements in an appropriate operational, economic, or historical
context. We have applied certain limited procedures to the required supplementary information in
accordance with auditing standards generally accepted in the United States of America, which consisted of
inquiries of management about the methods of preparing the information and comparing the information
for consistency with management’s responses to our inquiries, the basic financial statements, and other
knowledge we obtained during our audits of the basic financial statements. We do not express an opinion
or provide any assurance on the information because the limited procedures do not provide us with
sufficient evidence to express an opinion or provide any assurance.

Our audits were conducted for the purpose of forming an opinion on the consolidated financial statements
as a whole. The information in the Commissioner’s Message, Performance Section, Message from the
Chief Financial Officer, Other Accompanying Information, and Acronyms as reflected in CBP’s Fiscal
Year 2012 Performance and Accountability Report is presented for the purposes of additional analysis and
is not a required part of the basic financial statements. Such information has not been subjected to the
auditing procedures applied in the audits of the basic financial statements, and accordingly, we do not
express an opinion or provide any assurance on them.

Internal Control Over Financial Reporting
Our consideration of the internal control over financial reporting was for the limited purpose described in
the Responsibilities section of this report and was not designed to identify all deficiencies in internal

                                                      2

control over financial reporting that might be significant deficiencies or material weaknesses and therefore,
there can be no assurance that all deficiencies, significant deficiencies, or material weaknesses have been
identified. However, in our fiscal year 2012 audit, we identified certain deficiencies in internal control over
financial reporting that we consider to be a material weakness and other deficiencies that we consider to be
significant deficiencies.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent, or
detect and correct misstatements on a timely basis. A material weakness is a deficiency, or combination of
deficiencies, in internal control such that there is a reasonable possibility that a material misstatement of
the entity’s financial statements will not be prevented, or detected and corrected on a timely basis. We
consider the deficiencies described in Exhibit I to be a material weakness.

A significant deficiency is a deficiency, or a combination of deficiencies, in internal control that is less
severe than a material weakness, yet important enough to merit attention by those charged with
governance. We consider the deficiencies described in Exhibit II to be significant deficiencies.

Exhibit III presents the status of prior year significant deficiencies and the material weakness.

We noted certain additional matters that we will report to the management of CBP in a separate letter.

Compliance and Other Matters
The results of our tests of compliance as described in the Responsibilities section of this report disclosed no
instances of noncompliance or other matters that are required to be reported herein under Government
Auditing Standards or OMB Bulletin No. 07-04.

                                                 *******

Responsibilities
Management’s Responsibilities. Management is responsible for the consolidated financial statements;
establishing and maintaining effective internal control over financial reporting; and complying with laws,
regulations, and contracts applicable to CBP.

Auditors’ Responsibilities. Our responsibility is to express an opinion on the fiscal year 2012 and 2011
consolidated financial statements of CBP based on our audits. We conducted our audits in accordance with
auditing standards generally accepted in the United States of America; the standards applicable to financial
audits contained in Government Auditing Standards, issued by the Comptroller General of the United
States; and OMB Bulletin No. 07-04. Those standards and OMB Bulletin No. 07-04 require that we plan
and perform the audits to obtain reasonable assurance about whether the consolidated financial statements
are free of material misstatement. An audit includes consideration of internal control over financial
reporting as a basis for designing audit procedures that are appropriate in the circumstances, but not for the
purpose of expressing an opinion on the effectiveness of CBP’s internal control over financial reporting.
Accordingly, we express no such opinion.

An audit also includes:

•	    Examining, on a test basis, evidence supporting the amounts and disclosures in the consolidated
      financial statements;


                                                       3

•     Assessing the accounting principles used and significant estimates made by management; and
•     Evaluating the overall consolidated financial statement presentation.
We believe that our audits provide a reasonable basis for our opinion.

In planning and performing our fiscal year 2012 audit, we considered CBP’s internal control over financial
reporting by obtaining an understanding of CBP’s internal control, determining whether internal controls
had been placed in operation, assessing control risk, and performing tests of controls as a basis for
designing our auditing procedures for the purpose of expressing our opinion on the consolidated financial
statements, but not for the purpose of expressing an opinion on the effectiveness of CBP’s internal control
over financial reporting. Accordingly, we do not express an opinion on the effectiveness of CBP’s internal
control over financial reporting. We did not test all controls relevant to operating objectives as broadly
defined by the Federal Managers’ Financial Integrity Act of 1982.

As part of obtaining reasonable assurance about whether CBP’s fiscal year 2012 consolidated financial
statements are free of material misstatement, we performed tests of CBP’s compliance with certain
provisions of laws, regulations, and contracts, noncompliance with which could have a direct and material
effect on the determination of the consolidated financial statement amounts, and certain provisions of other
laws and regulations specified in OMB Bulletin No. 07-04. We limited our tests of compliance to the
provisions described in the preceding sentence, and we did not test compliance with all laws, regulations,
and contracts applicable to CBP. However, providing an opinion on compliance with laws, regulations,
and contracts was not an objective of our audit and, accordingly, we do not express such an opinion.
                                   ______________________________
CBP’s written response to the findings identified in our audit is presented in Management’s Response to
the Independent Auditors’ Report. Management’s response was not subjected to the auditing procedures
applied in the audit of CBP’s consolidated financial statements and, accordingly, we express no opinion on
it.
This report is intended solely for the information and use of CBP’s management, DHS’ management, the
DHS Office of Inspector General, OMB, the U.S. Government Accountability Office, and the U.S.
Congress and is not intended to be and should not be used by anyone other than these specified parties.




January 25, 2013




                                                     4

                                                                                                EXHIBIT I
Material Weakness
A.	 Drawback of Duties, Taxes, and Fees
Background:
U.S. Customs and Border Protection (CBP) performs an important revenue collection function for the U.S.
Department of the Treasury. CBP collected approximately $35.5 billion in import duties, taxes, and fees in
fiscal year (FY) 2012 on merchandise arriving in the U.S. from foreign countries.
Drawback is a remittance, in whole or in part, of duties, taxes, or fees previously paid by an importer.
Drawback typically occurs when the imported goods, on which duties, taxes, or fees have been previously
paid, are subsequently exported from the United States or destroyed prior to entering the commerce of the
United States. Depending on the type of drawback claim, the claimant has up to eight years from the date
of importation to file for drawback.
The conditions cited below have existed for several years; however, since FY 2009 CBP’s planned
remediation for many of these conditions was tied to systems modernization through the Automated
Commercial Environment (ACE). In recent years, funding for the implementation of ACE has been
reduced, and a systems solution is currently unfunded. In FY 2012, CBP continued its efforts to review
and reassess the drawback process as a whole.
Condition:
The following weaknesses related to internal control over drawback of duties, taxes, and fees paid by the
importer were identified:
 •	 CBP is unable to prevent, or detect and correct excessive drawback claims against an entry summary

    due to the inherent limitations of the Automated Commercial System (ACS) and the lack of controls 

    therein. An entry summary can comprise numerous line items; however, ACS does not have the 

    capability to compare, verify, and track essential information on drawback claims to the related 

    underlying consumption entries (UCEs), their individual line items, or export documentation upon 

    which the drawback claim is based.

 •	 Currently, the drawback module within ACS provides information to ensure that the total amount of all
    drawback claims against a given import entry does not exceed 100% of the total amount of duties,
    taxes, and fees collected, at the entry summary level. By law, the amount paid for drawback claims
    against a given import entry are not to exceed 99% of the duties, taxes, and fees collected at the
    individual line item level and the entry summary level. In addition, export information is not linked to
    the drawback module and therefore, electronic comparisons of export data cannot be performed within
    ACS to ensure that overpayments of drawback claims are not made.
•	 Drawback review policies do not require Drawback Specialists to review all, or a statistically valid
   sample, of prior drawback claims against a selected import entry to determine whether, in the
   aggregate, an excessive amount has been claimed against import entries. CBP utilizes a “validity tree”
   approach when selecting prior drawback claims for review. The validity tree approach requires CBP to
   review the largest prior drawback claims; however, this approach is not statistical. In addition, for
   certain claims drawback review policy and procedures allow Drawback Specialists, with supervisory
   approval, to judgmentally decrease the number of UCEs reviewed to 30 if the number of UCEs exceeds
   30 entries, which decreases the review’s effectiveness. Further, CBP’s sampling methodology for
   selecting UCEs is not considered to be statistically valid and CBP’s Drawback Handbook does not
   include procedures for statistically projecting errors identified in the sample.



                                                    I.1

                                                                                                EXHIBIT I
•	 The statutory period for document retention of a drawback claim is only three years from the date of
   payment. However, there are several situations that could extend the life of the drawback claim well
   beyond three years.
Cause/Effect:
Due to system functionality limitations, much of the drawback process is manual, placing an added burden
on limited resources. CBP uses a sampling approach to compare, verify, and match consumption entry and
export documentation to drawback claims submitted by importers. However, system and procedural
limitations significantly decrease the effectiveness of this approach.
The inherent risk of fraudulent claims or claims made in error is high, which increases the risk of erroneous
payments. Since all, or a statistically valid sample, of the related drawback claims are not reviewed for a
selected import entry, the possibility exists that the related drawback claims, in aggregate, will exceed the
amount of duty and tax collected on the UCEs at the line item level. In addition, the length of the
drawback claim lifecycle often extends beyond the document retention period, which is set by statute at
three years after payment of the claim.
Criteria:
Presented in Index of Financial Reporting and Internal Control Criteria behind Exhibit III.
Recommendations:
We recommend that CBP:
1.	 Continue to pursue alternative compensating controls and measures that may ultimately identify the
    potential revenue loss exposure to CBP, as the incorporation of drawback processing is not in the near-
    term schedule for ACE production. These alternative internal controls over drawback claims may
    result in the capability to compare, verify, and track essential information on drawback claims to the
    related UCEs and export documentation for which the drawback claim is based, and identify duplicate
    or excessive drawback claims;
2.	 Develop and implement automated controls to prevent overpayment of a drawback claim; and
3.	 Analyze current policies and procedures performed at the Drawback Centers, determine the
    cost/benefit of current procedures, and revise as necessary.
CBP Response:
See management’s response included in the attached letter.




                                                     I.2

                                                                                              EXHIBIT II

Other Significant Deficiencies
B.	 Property, Plant, and Equipment
Background:
U.S. Customs and Border Protection (CBP) acquired substantial new technology, facilities, and other
assets in recent years through purchase and construction. The increased assets primarily include
construction of border fencing (both physical and virtual), purchase of inspection equipment at Ports of
Entry (POEs), and new facility construction at POEs.
Condition:
Improvements over CBP’s accounting for Property, Plant, and Equipment (PP&E) were observed in FY
2012; however, several weaknesses remained throughout the fiscal year. Specifically, CBP:
•	 Did not properly and timely record certain construction-in-progress (CIP) settlement transactions,
   resulting in the misclassification of assets in the general ledger. The settlement recording delays
   spanned from one to seventeen months. As a result of these late settlements, depreciation for the
   assets was understated from the time the assets were placed in service to when the assets were settled.
   CBP performs a manual journal entry to correct total accumulated depreciation and depreciation
   expense in the general ledger. In addition, certain assets were identified in which CBP understated
   the value of its assets that were placed in service. CBP did not recognize the full value of the assets
   until further invoices were received. Furthermore, CBP incorrectly allocated overhead related to
   some American Recovery and Reinvestment Act Land Port of Entry construction projects that were
   incorrectly settled. Subsequent adjustments were made to the assets which caused over and
   understatements throughout the year.
•	 Did not detect assets incorrectly recorded, misclassified, or not recorded in the general ledger.
   Additionally, certain assets were recorded in the general ledger that no longer existed.
•	 Recorded certain asset additions for an amount other than the amount paid prior to the completion of
   a construction project, without proper supporting documentation, or in an untimely manner.
•	 Improperly recorded certain asset retirements. Specifically, some assets that were retired did not have
   proper approval and/or supporting documentation.
•	 Did not timely record certain asset retirements and did not properly write-down the value of some
   assets that were no longer providing their expected services. For the retirement transactions not
   timely recorded, one month to twelve months lapsed between when an asset was physically removed
   from service and when it was retired from service in the system.
Criteria:
Presented in Index of Financial Reporting and Internal Control Criteria behind Exhibit III.
Cause/Effect:
CBP did not fully implement policies and procedures and does not have sufficient oversight of its policies
and procedures, to ensure that all PP&E transactions are recorded timely and accurately. As a result,
CBP’s CIP, PP&E, depreciation expense, and accumulated depreciation may be misstated at any point
during the fiscal year by the recording of transactions that are incorrect, unsupported, or untimely.




                                                    II.1

                                                                                               EXHIBIT II
Recommendations:
We recommend that CBP:
1.	 Ensure that existing policies and procedures for the proper recordation of asset additions, transfers 

    and retirements with regard to asset valuations and depreciation are followed, and properly

    communicated throughout CBP;

2.	 Determine whether existing policies and procedures regarding purchase orders and goods receipt are
    sufficient, revise policies where necessary, and communicate policies and procedures to receivers of
    goods throughout CBP;
3.	 Establish procedures and training materials to ensure that program offices understand and implement
    internal controls to transfer completed assets timely and accurately from CIP to final assets; and
4.	 Request system changes, where possible, to require the submission of detailed supporting

    documentation and to ensure the proper authorization for retirement has been obtained prior to the 

    completion of asset retirement transactions.

C.	 Entry Process
       1. In-Bond Program
          Background:
          In FY 2012, CBP deployed a new system to replace the existing in-bond oversight functions,
          called the In-Bond Compliance Module. This module was implemented in early September
          2012 and is intended to create a more effective in-bond monitoring system. However, for the
          majority of the period under audit, CBP was following policies and procedures that led to
          ineffective and inefficient in-bond processes and was using a system with limitations that
          restricted CBP’s ability to accurately monitor the in-bond process, both at the Headquarters
          and port levels. The following discussion and conditions relate to processes and procedures
          that were in place during FY 2012.
          General In-Bond Process
          An in-bond entry allows the movement of cargo through the United States without payment of
          duty or appraisement prior to entry into domestic or foreign commerce. The cargo may enter
          commerce after it arrives at the destination port and an entry is filed. An in-bond also allows
          foreign merchandise arriving at one U.S. port to be transported through the U.S. for
          exportation from another U.S. port without the payment of duty.
          Compliance Audit and In-Bond
          In 1998, CBP implemented an audit system within the Automated Commercial System (ACS)
          to serve as a compliance measurement system. This audit system, known as Tin-Man, utilizes
          random physical examinations and post audit reviews to ensure bonded carrier compliance
          with bond obligations. Tin-Man is used to select ports to perform physical examinations at the
          time of arrival and departure and to perform post audit reviews of carrier activity. Once each
          week, ports throughout the U.S. are to be assigned post audits and physical examinations to
          perform based on a GAO-approved algorithm.
          In-Bond Shipments Overdue for Export (M02) Report
          In-bond shipments overdue for export are included on the M02 report. Items on this report are
          in-bond movements transmitted by importers or brokers via the Automated Manifest System
          (AMS), Automated Broker Interface (ABI), or paper that have not exported within the
          required time limit. Review of the M02 report is designed to identify, but is not limited to,

                                                    II.2

                                                                                 EXHIBIT II
cargo that has not been exported and therefore may have physically, but not formally entered
into U.S. commerce, administrative or clerical errors with paperwork, or system processing
errors.
Monthly List of In-Bond Shipments Overdue (M07) Report:
In-bond shipments overdue are included on the monthly M07 report. Data on paperless and
conventional in-bond movements transmitted by AMS participants, as well as in-bond
information input via the Process Departures function in ACS appear on this report. Review
of the M07 report is designed to identify cargo that has not arrived at the original destination
POE communicated to CBP.
Condition:
The following weaknesses were identified over the in-bond program:
   •	 Ports were required to submit a summary of post audits conducted and the associated
      results to Headquarters. However, due to a system limitation in ACS, Headquarters
      was unable to generate an oversight report to determine if ports had completed all
      required audits. The In-Bond Exam/Audit Selection report in ACS was designed to
      provide this function, but did not accurately list the history of all in-bonds selected for
      audit and was not consistent with the listing of incomplete Tin-Man audits on the In-
      Bond Exam Audit Table report. With the implementation of the ATS In-Bond
      Compliance module, Headquarters will be able to generate an oversight report to
      determine if ports have completed all required audits.
   •	 Headquarters completed a monthly analysis of the post audits and results submitted
      from the ports to determine the overall compliance rate of the in-bond program.
      However, documentation of this analysis was not maintained.
   •	 The M02 report was designed to track overdue in-bonds for all modes of export; 

      however, the M02 report was unable to track air in-bonds. 

   •	 The design of the M02 and M07 reports led to outdated information being reported on
      the monitoring reports. Therefore, the ports were instructed to focus on the most recent
      issues. As a result, there was no requirement for ports to completely resolve all open
      items on the M02 and M07 reports each time they were reviewed and open items on the
      reports remained unresolved. Additionally, certain ports were not maintaining the M02
      and M07 reports in accordance with documentation retention requirements outlined in
      policy.
   •	 Certain ports were not performing physical examinations as designated by Tin-Man,
      were not generating the Tin-Man report at the frequency prescribed in policy, and were
      not maintaining the Tin-Man reports in accordance with documentation retention
      requirements outlined in policy.
Criteria:
Presented in Index of Financial Reporting and Internal Control Criteria behind Exhibit III.
Cause/Effect:
CBP memorandums and guidelines that outlined field personnel requirements to generate,
review, and reconcile items on the Tin-Man, M02, and M07 reports and to retain supporting
documentation were not always followed. Due to a flaw in the design of the M02 and M07
reports, there was no requirement for ports to completely resolve all items on the reports each


                                         II.3

                                                                                  EXHIBIT II

  time the reports were reviewed. Furthermore, ACS system limitations restricted the ability of
  CBP personnel to accurately monitor the in-bond process, both at the Headquarters and port
  levels.
  The inability to monitor the in-bond process and verify the arrival of in-bond merchandise at
  the port level effectively could result in the loss of custodial fines and penalties revenue.
  The lack of an automated compilation and analysis of audit results at the national level makes
  it difficult for CBP to ensure complete information is received from the ports in order to
  determine the effectiveness of in-bond audits and common in-bond errors.
  Recommendations:
  We recommend that CBP perform the following:
   1.	 Monitor the newly implemented In-bond Compliance Module to ensure that the system is
       functioning correctly;
   2.	 Correct any systemic issues that may develop and ensure corrections are fully

       implemented at the port level;

   3.	 Provide additional policy and direction, if necessary, after a periodic review of the In-
       bond Compliance Module; and
   4.	 Provide Headquarters oversight and assistance to the field to ensure that ports are 

       following policies and procedures.

2. Bonded Warehouse and Foreign Trade Zones
   Background:
   Bonded Warehouses (BWs) are facilities under CBP’s supervision used to store merchandise
   that has not made entry into the U.S. Commerce. The merchandise stored in such warehouses
   is secured by the bond on the warehouse. Merchandise is entered into the BW by the
   submission of the Entry Summary, CBP Form 7501, and can be stored in the bonded facility
   for up to five years.
   Foreign Trade Zones (FTZs) are secure areas under CBP supervision considered to be outside
   of the CBP territory. Authority for establishing these facilities is granted by the Foreign
   Trade Zones Board under the Foreign Trade Zones Act of 1934, as amended (19 U.S.C. 81a­
   81u). Foreign and domestic merchandise may be admitted into zones for operations not
   otherwise prohibited by law, including storage, exhibition, assembly, manufacturing, and
   processing. Merchandise is admitted into a FTZ by completing CBP Form 214.
   The monitoring of BW and FTZ operations is based on the performance of risk assessments
   and compliance reviews by CBP officers in the field. CBP conducts an annual survey of
   ports that have BWs and FTZs, the results of which are submitted to Headquarters for
   compilation and analysis. Headquarters uses the survey results to assist in CBP’s
   determination on the effectiveness of the BW and FTZ programs. CBP developed national
   databases within ACE to maintain a centralized repository of profiles of bonded facilities and
   FTZ sites.




                                           II.4

                                                                                  EXHIBIT II
Condition:
The following weaknesses were identified related to the BW and FTZ programs:
  •	 The national databases within ACE were not designed to document the assessed risk of
     each BW or FTZ, scheduled compliance review, or the results of compliance reviews.
     CBP uses Sharepoint to document the assessed risk of each BW or FTZ, scheduled
     compliance review, and the results of compliance reviews. ACE is the system of
     record for Facilities Information Resource Management (FIRMS) codes, which are
     assigned upon approval of a BW and FTZ; however, CBP has not conducted a
     reconciliation of the FIRMS codes in ACE with the information in Sharepoint.
     Furthermore, requirements do not exist for Headquarters or the field offices to compare
     the FIRMS codes in the ACE databases to the compliance review schedules submitted
     by the ports to ensure that all compliance reviews are being performed.
  •	 CBP performed a year-end analysis over the FY 2012 survey; however, management
     cannot determine if the information in the analysis is complete and therefore could not
     determine overall program effectiveness.
  •	 For several FTZs and BWs, CBP was unable to provide evidence that risk assessments
     were performed at the time of the FY 2012 compliance reviews of the facilities.
     Additionally, CBP was unable to provide supporting documentation to evidence a
     compliance review and associated risk assessment was performed during the fiscal
     year.
Criteria:
Presented in Index of Financial Reporting and Internal Control Criteria behind Exhibit III.
Cause/Effect:
Ports do not always follow the required guidelines stated in the Compliance Review
Handbook for Bonded Warehouses and the Compliance Review Handbook for Foreign Trade
Zones. CBP does not have updated formal guidance related to Headquarters’ monitoring of
the BW and FTZ programs, including procedures to ensure all necessary compliance reviews
are scheduled and completed.
There is a risk that a BW or FTZ may not be properly monitored by the ports if risk
assessments and compliance reviews are not conducted. Additionally, there is a risk that the
BW and FTZ programs may not be properly monitored as there is no formal requirement for
Headquarters to reconcile the database with the compliance reviews conducted.
Recommendations:
We recommend that CBP perform the following:
1.	 Continue to monitor and review the compliance review results to ensure that the high
    compliance rate continues;
2.	 Continue to review facility profiles in ACE to ensure that profiles are constantly updated;
3.	 Work within the constraint of the current fiscal parameters to develop additional training
    and information sharing processes for the ports;
4.	 Continue to provide outreach and guidance to the field as necessary; and
5.	 Create a Headquarters process to monitor compliance reviews for accuracy and
    consistency, on a quarterly basis.


                                       II.5

                                                                                    EXHIBIT II

3. Entry Reports
   Background:
   Per CBP Directives No. 5610-004B, Resolving Certain ACE Exception and Error Reports,
   and No. 5610-006A, Entry Deletion and Entry or Entry Summary Cancellation, all ports are
   required to process specific entry edit/exception reports, including the following:
     •	 The B06, Weekly ACS List of Rejected/Cancelled Entries Report, lists all entries that
        were either cancelled or placed in rejected status by the end of the previous week.
     •	 The B07, Weekly ACS List of Unpaid/Rejected Entries, provides a cumulative listing
        of entries in rejected status and entries for which duty, taxes, and fees have not been
        collected, or if collected, not properly posted to the entry.
     •	 The B08, Weekly Late Report: Entry Releases with No Follow-Up Summaries, is a
        cumulative listing of entry releases with no processing errors or follow-up entry
        summary on file in ACS/ACE.
     •	 The B84, Weekly Budget Clearing Account (BCA) and Suspense Item Report, is a
        cumulative listing of collections that are an intentional posting to a suspense account or
        collections in an error condition.
     •	 The S21, Cargo Selectivity Weekly Selectivity Delete Report, lists all entries that have
        been deleted by port personnel during the previous week.
     •	 The Q07, Monthly Unreported Quota Report, is a cumulative listing of quota entries
        that have not been processed through the quota module or remain in quota rejected
        status where processing was attempted.
   Condition:
   Several instances of non-compliance with CBP Directives No. 5610-004B and No. 5610­
   006A were identified at the POEs. Specifically, a lack of segregation of duties was identified
   over the review process for certain reports, some reports were untimely generated and
   reviewed, and certain reports were not reviewed.
   Criteria:
   Presented in Index of Financial Reporting and Internal Control Criteria behind Exhibit III.
   Cause/Effect:
   CBP ports did not follow the policies in place to ensure entry edit/exception reports are
   generated and reviewed in a timely manner. CBP does not have adequate controls in place to
   ensure the segregation of duties related to the processing, review, and verification of entry
   edit/exception reports at the ports. CBP did not properly enforce and communicate directives
   over entry edit/exception reports to the ports.
   Non-performance or inadequate processing, review and verification of entry edit/exception
   reports may cause CBP to fail to collect all revenue to which it is entitled. Specifically,
   entries improperly cancelled or deleted, unpaid duties, late entry summaries, duties held in
   suspense accounts, and unreported quotas could result in a loss of revenue from uncollected
   duties and fees.




                                          II.6

                                                                                              EXHIBIT II

             Recommendation:
             We recommend that CBP reinforce the importance of CBP Directives No. 5610-004B and
             No. 5610-006A by issuing a reminder memorandum to ensure that entry monitoring reports
             are generated and regularly reviewed, as specified in the directives.
D. Information Technology
Background:
Controls over information technology (IT) and related financial systems are essential elements of
financial reporting integrity. Effective controls in an IT and financial systems environment are typically
defined in five key general control areas (security management, access control, configuration
management, segregation of duties, and contingency planning) and four key application control areas
(application level general controls, business process controls, interface controls, and data management
system controls). In addition to reliable general and application controls, financial management system
functionality is important to program monitoring, increasing accountability of financial and program
managers, providing better information for decision-making, and increasing the efficiency and
effectiveness of services provided by the Federal Government.
Condition:
During FY 2012, CBP took corrective action to address prior year IT control deficiencies. For example,
CBP made improvements to various system accreditation documentation, reviews of security event logs,
and privileged user access management processes. However, during FY 2012 new and continuing general
IT control weaknesses were identified that could potentially impact CBP’s financial data. The most
significant weaknesses from a financial statement audit perspective related to controls over access control,
segregation of duties, and configuration management. Collectively, the general IT control weaknesses
limit CBP’s ability to support assertions that critical financial and operational data confidentiality,
integrity, and availability are maintained. Additionally, CBP’s current system of record used to process
entries imported into the U.S. cannot support all of CBP’s operations, which limits CBP’s ability to
manage and monitor the custodial revenue and drawback processes effectively. Due to the sensitive
nature of the issues identified, we will issue a separate restricted distribution report that discusses the
general IT control and functionality control deficiencies in greater detail.
Criteria:
Presented in Index of Financial Reporting and Internal Control Criteria behind Exhibit III.
Cause/Effect:
Funding for IT development and implementation, as well as for IT support staff has been reduced in
recent years, resulting in delays of systems that would replace or enhance current systems and insufficient
system management resources. In addition, because of the presence of IT control and financial system
functionality weaknesses, there is added pressure on mitigating controls to operate effectively.
Recommendation:
We recommend that CBP improve the general and application controls over its financial systems to
ensure adequate security, protection, and functionality of the information systems.
CBP Response:
See management’s response included in the attached letter.




                                                    II.7

                                                                                                 EXHIBIT III
Status of Prior Year Material Weakness and Significant Deficiencies

                                            As Reported at
     Prior Year Condition                                                     Status as of September 30, 2012
                                          September 30, 2011

  Drawback of Duties, Taxes,   Material weakness: The Automated               Continue as a material
  and Fees                     Commercial System (ACS) lacked controls        weakness: Weaknesses continue
                               to detect and prevent excessive drawback       to exist related to the drawback
                               claims and payments, requiring inefficient     process in fiscal year (FY) 2012.
                               compensating manual processes. The             See control finding letter A.
                               drawback review policies did not require
                               Drawback Specialists to review all related
                               drawback claims.

  Property, Plant, and         Significant deficiency: Weaknesses             Continue as a significant
  Equipment (PP&E)             existed related to the untimely transfer of    deficiency: Weaknesses
                               construction-in-progress (CIP) to fixed        continue to exist related to
                               assets and recording PP&E additions,           untimely transfer of CIP to fixed
                               reclassifications, and retirements.            assets and recording PP&E
                               Additionally, weaknesses existed with          additions and retirements.
                               recording the percentage of completion for     Additionally, weaknesses
                               certain construction projects. Furthermore,    continue to exist with oversight
                               weaknesses existed related to oversight of     of PP&E. Several instances were
                               PP&E, such as not properly performing          noted regarding incomplete and
                               inventory counts.                              nonexistent PP&E. See control
                                                                              finding B.

  Entry Process – In-Bond      Significant deficiency: Several                Continue as a significant
                               weaknesses existed related to in-bond, such    deficiency: Weaknesses
                               as lack of official guidance related to        continued to exist related to in-
                               monitoring in-bond shipments at the port       bond, such as ACS system issues
                               level, lack of CBP Headquarters review of      preventing appropriate
                               the in-bond program, and the overall           Headquarters oversight,
                               inability to determine the effectiveness of    inadequate documentation of the
                               the in-bond program for CBP in its entirety.   monthly in-bond analysis,
                                                                              ineffective monitoring of
                                                                              management reports, and Tin-
                                                                              Man system limitations. See
                                                                              control finding letter C, section
                                                                              1.

  Entry Process –Trade         Significant deficiency: Weaknesses             Significant deficiency was
  Compliance Measurement       existed related to TCM, such as                remediated in FY 2012.
  (TCM)                        inconsistent use of data queries and reports
                               by TCM Coordinators, Automated
                               Commercial Environment (ACE) reporting
                               functionality limitations, inadequate
                               training on ACE capabilities, inadequate
                               monitoring and insufficient review
                               guidance.

  Entry Process – Bonded       Significant deficiency: Several                Continue as a significant
  Warehouse (BW) and           weaknesses existed related to the BW and       deficiency: Weaknesses continue
  Foreign Trade Zones (FTZ)    FTZ processes, such as inadequate              to exist related to the BW and


                                                    III.1

                                                                                            EXHIBIT III

                                      As Reported at
  Prior Year Condition                                                   Status as of September 30, 2012
                                    September 30, 2011
                         monitoring and documentation.                   FTZ programs, such as
                                                                         inadequate monitoring and
                                                                         documentation. See control
                                                                         finding letter C, section 2.

Information Technology   Significant deficiency: Weaknesses              Continue as a significant
(IT)                     existed related to general IT and application   deficiency: Weaknesses
                         controls and IT functionality. Specifically,    continue to exist related to
                         these included findings in the area of          general IT and application
                         general IT security planning and                controls and IT functionality. In
                         management, logical and physical access to      FY 2012, the majority of prior
                         programs and data, segregation of duties,       year findings were unresolved
                         software change management, business            and several new findings were
                         continuity, and the ability of systems to       identified. See control finding
                         track financial transactions accurately and     letter D.
                         completely.




                                              III.2

                                                                                                       Index
Index of Financial Reporting and Internal Control Criteria
(Listed Alphabetically by Criteria Source)

                  Criteria                                 Reference                       Report Exhibit

                                           Sections 111.23, 111.25, 163.4(a),
                                                                                    I-A
                                           163.4(b), 191.15, 191.38, 191.51(b)(1)

  Code of Federal Regulations, Title 19    Sections 18.2(d), 18.6(b), 18.8(b)       II-C-1


                                           Sections 19.4(a), 146.3                  II-C-2

  Federal Information Security
                                                                                    II-D
  Management Act

  Federal Manager’s Financial Integrity
                                                                                    II-B
  Act

  National Institute of Standards and
  Technology (NIST) Special Publication
                                                                                    II-D
  (SP) 800-30, Risk Management Guide for
  Information Technology Systems
  NIST SP 800-37, revision 1, Guide for
  Applying the Risk Management
                                                                                    II-D
  Framework to Federal Information
  Systems
  NIST SP 800-53, revision 3,
  Recommended Security Controls for
                                                                                    II-D
  Federal Information Systems and
  Organizations
  Office of Management and Budget (OMB)
  Circular No. A-123, Management’s                                                  I-A, II-B, II-C-1, II-C-2
  Responsibility for Internal Control

  OMB Circular No. A-127, Financial
                                                                                    II-D
  Management Systems

  OMB Circular No. A-130, Management of
                                                                                    II-D
  Federal Information Resources

  Standards for Internal Control in the
  Federal Government issued by the                                                  II-C-3
  Government Accountability Office (GAO)

  Statement of Federal Financial
  Accounting Standards (SFFAS) No. 6,
                                                                                    II-B
  Accounting for Property, Plant, and
  Equipment




                                                 Index.1
                                                                        1300 Pcnn'>}'ivallia Avenue NW
                                                                        Wa,>hlllgton. OC 20219



                                                                        u. S. Customs and
                                                                        Border Protection

    JAN 2 3 2013
MEMORANDUM FOR:               Anne L. Richards
                              Assistant Inspector General for Audits
                              U.S. Department of Homeland Security

FROM:                         Deborah 1. Schilling
                              Chief Financia l Officer
                              U.S. Customs and Border Protection

SUBJECT:                      Management Response - Draft Independent Auditor's Report on
                              CBP's FY 2012 Financial Statements

Thank you for the opportunity to review and comment on thi s report. U.S. Customs and Border
Protection (CBP) agrees with the Independent Public Accountant, which concluded that CSP's
consolidated financial statements are fairly presented in all material respects and conformity with
accounting principles.

CBP has reviewed and concurs with the one material weakness and the three significant
deficiencies. Mission Action Plans outlining CBP's strategy to correct these conditions were
completed and provided to the office of the Department of J-Iomeland Security Chief Financial
Officer. CBP wi ll continue to work to reso lve the auditor identified weaknesses.

I want to thank you for your efforts and look forward to continuing our professional auditing
relationship. If you have any questions or would like additional information. please contact me
at (202) 344-2300, or have a member of your staff contact Ms. Jaye M. Williams, Executive
Director. Financial Operat ions Directorate, at (202) 344-2364.


                       J
Deborah J. Schilling
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security
                            


Appendix A
Report Distribution
Department of Homeland Security

Secretary
Deputy Secretary
Chief of Staff
Deputy Chief of Staff
General Counsel
Executive Secretary
Director, GAO/OIG Liaison Office
Assistant Secretary for Office of Policy
Assistant Secretary for Office of Public Affairs
Assistant Secretary for Office of Legislative Affairs
Acting Chief Privacy Officer
Chief Financial Officer
Chief Information Officer

U.S. Customs and Border Protection

Commissioner
Chief Financial Officer
Chief Information Officer

Office of Management and Budget

Chief, Homeland Security Branch
DHS OIG Budget Examiner

Congress

Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                                                         OIG-13-53 

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
